     INVESTOR EDUCATION AND
       ASSISTANCE PROGRAM


                   EXECUTIVE SUMMARY
The Securities and Exchange Commission’s Office of Inspector General conducted an
audit of the Commission’s Investor Education and Assistance Program (IEAP). The
objectives of the IEAP are: investor education, processing of investor complaints, and
analysis of investor complaints and inquiries (to provide intelligence to the
Enforcement and Compliance Inspection & Examination programs, the field offices,
as well as the IEAP itself). The Office of Investor Education and Assistance (OIEA)
and investor specialists in most regional and district offices conduct the program. In
recent years, the IEAP has experienced a significant increase in the volume of
investor complaints and inquiries, without a corresponding increase in staffing. Our
audit objective was to evaluate the effectiveness and efficiency of the IEAP.
We found that, overall, OIEA and the field offices have been successful at achieving
the investor education objective. Nonprofit educational organizations we surveyed
believed that the OIEA’s educational activities (e.g., Investor’s Town Meetings,
pamphlets, and web site) are very effective and that information is available to
investors. Information is also provided to investors in the processing of investor
complaints and inquiries. In addition, OIEA recognizes the challenge to reach and
educate financially illiterate or unsophisticated investors who will have increased
responsibility for their own financial future.
Several obstacles to fully achieving IEAP’s complaint processing and intelligence
analysis objectives exist. The volume of investor complaints and inquiries has
increased 108% from fiscal years 1993 to 1999. Although no additional staff has
been budgeted for this process, OIEA has taken several steps to accommodate the
increased workload. We believe that additional changes in processing investor
complaints and inquiries would further increase the productivity of IEAP staff. In
addition, lack of central policy and direction between OIEA and the field offices has
created uneven processing of investor complaints and inquiries, analysis of
intelligence, and services to investors. Finally, we believe that the current tracking
and management information system is outdated and needs to be rethought.
We are making several recommendations to improve the overall effectiveness and
efficiency of the IEAP. We are recommending that complaint processing and
intelligence analysis be reengineered with a focus on uniform and effective policy,
procedures, performance measures, and information systems. OIEA and the field
offices have already initiated several actions to improve the efficiency of the
complaint and inquiry process and we commend them for their proactive efforts.
                                                                                   Page 2


We have received numerous oral and written comments from the Commission
divisions and offices involved in the IEAP program. The report has been modified
accordingly.



            AUDIT SCOPE AND OBJECTIVES
Our audit objective was to evaluate the effectiveness and efficiency of the Investor
Education and Assistance Program (IEAP). During the audit, we interviewed and/or
surveyed Commission staff (especially investor specialists), staff at other federal
regulatory agencies, officials at Self-Regulatory Organizations (SRO), and
individuals from nonprofit organizations that educate the public about finance,
investing, and other related topics. We also reviewed applicable documentation,
attended one of the Investor’s Town Meetings, and performed analysis (e.g., review
of investor complaint files), among other procedures. We did not review the
reasonableness of computer system entries.
The audit was performed between October 1998 and June 1999 in accordance with
generally accepted government auditing standards, except we did not comply with
the auditing standard Validity and Reliability of Data From Computer Based
Systems (GAGAS 6.62). The IEAP’s Agency Correspondence and Tracking System
(ACTS) and the Division of Enforcement's Case Activity Tracking System (CATS)
computer systems were not audited because OIEA is trying to replace ACTS, and the
Division of Enforcement recently replaced CATS to ensure it was year 2000
compliant. Thus, auditing these computer systems would provide little benefit. We
have disclosed instances where we have relied on computer-generated data.



                                  BACKGROUND
Our most recent previous audit (Audit No. 202) of the IEAP was issued in September
1994. More recently, the Office of Investor Education and Assistance (OIEA) hired a
consultant in 1997 to review OIEA’s investor complaint and inquiry process in order
to improve efficiency.


IEAP OBJECTIVES

        Investor Education
An increasingly important objective of the IEAP is investor education. To make
investors more aware of investment risks and benefits, OIEA conducts educational
activities for investors (e.g., Investor’s Town Meetings, Facts on Saving and
Investing Campaign, pamphlets, and a web site). Four OIEA staff are assigned to
this function. According to the Division of Enforcement, field office staff devote lots
of time in support of the Town Meetings and other educational events (e.g., senior
field office staff are often called upon to speak to investor groups).


Investor Education and Assistance Program (Audit 288)                        April 25, 2000
                                                                                                  Page 3


Another important part of investor education occurs when IEAP staff respond to
investor inquiries. Inquiries represent over 50% of the IEAP’s annual workload.
For example, the IEAP responds to investor inquiries regarding:
      •   Whether old stock certificates have value;
      •   What to do when stock certificates are lost, stolen, or never received;
      •   What happens to a company’s stock when the company files for bankruptcy;
          and
      •   How to obtain information about companies.
In addition, OIEA stated that the IEAP provides investors with pertinent
information when processing investor complaints. IEAP investor specialists provide
educational information over the telephone, in writing, or by sending an appropriate
pamphlet to investors that make complaints.

          Complaint Processing
Commission Rule 17 CFR 200.24a(b), states that OIEA is responsible for:
           “… implementing and administering a nationwide system for resolving
          investor complaints against individuals and entities regulated by the
          Commission by processing complaints received from individual investors and
          assuring that regulated individual {sic} and entities process and respond to
          such complaints.”1
Currently, upon receiving a complaint, an IEAP investor specialist writes the firm
involved and asks for a response to the allegation(s). The investor specialist then
monitors whether a response has been received. However, the IEAP does not have
statutory authority to compel the firm to remedy the investor’s complaint, even if the
investor’s allegation(s) are valid. If the investor and the firm cannot reach an
agreement, the investor must usually arbitrate the dispute pursuant to a written
arbitration agreement between the investor and the firm.
OIEA investor specialists are assigned written investor complaints based on the
nature of the complaint (e.g., investor complaints against issuers, transfer agents,
etc.). However, telephone calls are assigned on a rotational basis. OIEA investor
specialists have their work reviewed by a Branch Chief.
In the field offices, the extent of supervisory review varies. The supervisor either:
(1) periodically spot checks the investor specialist’s work, (2) relies on the investor
specialist to bring novel, complex, or unique situations to the supervisor’s attention,
or (3) reviews everything. According to the Division of Enforcement, the field office
investor specialists are quite experienced and seek assistance from supervisors when


1   Although the Commission originally defined the objective for resolving investor complaints in terms
    of “output” (i.e., process complaints) in the CFR, recent legislation (e.g., Government Performance
    and Results Act) and administration initiatives (e.g., National Partnership for Reinventing
    Government) require agencies to also consider “outcomes” (e.g., investor assistance, education). To
    assess the effectiveness of IEAP complaint processing, we reviewed the outcomes of a sample of
    complaints that were processed by the program (see Appendix B).



Investor Education and Assistance Program (Audit 288)                                       April 25, 2000
                                                                                                  Page 4


needed. OIEA has no direct supervisory or management responsibility for the field
offices, but does provide some guidance.

          Intelligence Analysis
The third objective of the IEAP is intelligence analysis for potential regulatory
actions (e.g., a Division of Enforcement investigation or a targeted
inspection/examination). This entails reviewing the investor’s complaint to identify
potential violations of the securities laws that need to be referred to the
Commission’s Enforcement staff or Compliance Inspectors and Examiners, field
offices, SROs, state regulators, or other federal agencies. Investor complaints are
also an important source for identifying potential problems (e.g., policy issues) in the
securities industry. Trends or observations from investor complaints can also lead
to the Commission developing an educational campaign (e.g., on-line trading),
conducting examinations, or identifying the need for rulemaking.


WORKLOAD AND RESOURCES
Investor complaints have substantially increased recently. According to OIEA, in
fiscal year 1999, there were 72,173 complaints and inquiries received by the IEAP,
compared to 34,713 in 1993. The IEAP’s workload has increased by 108% from fiscal
years 1993 to 1999. During this time, the staffing level of individuals who process
investor complaints and inquiries has remained relatively constant. The graph
below shows the investor complaints and inquiries volume for the IEAP.2




2   The information for fiscal years 1993 through 1998 was obtained from the 1998 SEC Annual Report.
    Data for fiscal year 1999 was obtained from OIEA. The information for fiscal years 2000 and 2001 is
    a projected workload and was obtained from the Commission’s fiscal year 2001 budget. Prior to 1998,
    repeat contacts, contacts with insufficient information, etc. were reported as inquires. However,
    beginning in 1998, they were reported as a separate category “Other Contacts”. The “Other
    Contacts” column is not shown on the graph for 1998 and 1999. However, the number of “Other
    Contacts” is reflected in the “information Total” column. There were 5,646 and 9,358 repeat contacts,
    contacts with insufficient information, etc. for fiscal years 1998 and 1999 respectively.



Investor Education and Assistance Program (Audit 288)                                       April 25, 2000
                                                                                                      Page 5



     100000
                                   Complaints
      90000
                                   Inquiries
      80000                        Total

      70000

      60000

      50000

      40000

      30000

      20000

      10000

          0
                1993        1994           1995     1996        1997       1998        1999        2000          2001


Some of the increase in the complaint and inquiry volume was caused by investors
becoming aware of the IEAP through the Internet and other efforts made by the
Commission to publicize the IEAP. OIEA recognized that a backlog 3 was beginning
and initiated several actions. For instance, OIEA:
      •   Hired a consultant to review the investor complaint and inquiry process;
      •   Tried to find a new computer system;
      •   Made several investor complaint and inquiry process changes before and
          during the audit;
      •   Requested additional staffing; and
      •   Developed new web pages to provide more information to investors, thus
          reducing the need for investors to communicate with IEAP staff.

We commend OIEA for taking these proactive actions.
The Chairman also became aware of the backlog and requested various divisions
and offices to assist OIEA in processing the backlog of investor complaints and
inquiries. In addition, OIEA implemented an automated telephone system with
prompts to help make the complaint and inquiry process more efficient.
Because of OIEA’s efforts and the assistance of other divisions and offices, the
backlog has been significantly reduced. According to OIEA, as of December 12,
1999, there were approximately 1,444 open investor complaints and inquiries (a
decrease of approximately 75%), 30% of which were over 30 days old.


3   For instance, as of October 4, 1998, OIEA (i.e., not including any of the field offices) had 5,829 open
    investor complaints and inquiries, most of which were over 30 days old. The term “open” refers to
    unanswered and pending complaints and inquiries. Pending complaints are awaiting a response
    from the regulated entity. However, even though the entity has not responded, the IEAP has
    provided the investor with information about their legal rights, arbitration, etc.



Investor Education and Assistance Program (Audit 288)                                           April 25, 2000
                                                                                   Page 6


There are approximately 30 investor specialists and other staff in the IEAP who
process investor complaints and inquiries. According to the investor specialists that
we interviewed, on average, they spend 70% of their time on investor complaints
(45% on processing investor complaints and 25% on intelligence analysis) and 30%
on inquiries. This does not include any time spent on administrative or explicit
investor education activities (e.g., Investor’s Town Meetings).



                                AUDIT RESULTS

INVESTOR EDUCATION ACTIVITIES
The IEAP has been successful in achieving its educational objective and enhancing
its investor education programs. The IEAP has:
    •   Organized a series of successful Investor’s Town Meetings;
    •   Produced a comprehensive educational web site for investors using the
        Internet;
    •   Updated some pamphlets, developed several new pamphlets, and made the
        pamphlets available on its web site;
    •   Increased outreach programs through the media and coordinated with over
        50 partners to improve the distribution of education materials;
    •   Established a toll free telephone number which provides information to
        investors (e.g., order pamphlets, obtain information about corporate filings);
        and
    •   Participated in the Facts on Saving and Investing Campaign.
Overall, the nonprofit investor education organizations we surveyed believe that the
IEAP’s educational activities are very effective. They also believe that the
Commission’s investor education information is readily available to investors.
Moreover, the IEAP has recognized a major new educational challenge. Because of
the increased responsibility that individuals have for their own financial future,
there is a pressing need to reach and educate financially illiterate or unsophisticated
investors.
In our survey of nonprofit investor education organizations, we solicited suggestions,
assuming funding and staffing were not issues, to improve the Commission’s IEAP
and, specifically, how to enhance the education of financially illiterate or
unsophisticated investors (See Appendix A for a list of their suggestions).

        Recommendation A
        OIEA, in consultation with the Office of Economic Analysis (OEA), should
        evaluate the suggestions from nonprofit investor education organizations
        (See Appendix A) and implement them, as appropriate.



Investor Education and Assistance Program (Audit 288)                        April 25, 2000
                                                                                                   Page 7




According to OIEA, they had already considered some of these suggestions prior to
the audit and they have since considered the other suggestions.


UNIFORMITY OF IEAP PROCEDURES
In order to achieve the complaint processing objective, the Commission set a goal for
OIEA to:
           “…implement[ing] and administer[ing] a nationwide system for resolving
          investor complaints…” 4
OIEA has responsibility to implement this goal, but not the authority. Regional
managers, not OIEA, supervise the investor specialists in the field offices. Regional
Directors report to the Director of Enforcement and he evaluates their performance.
OIEA has no authority to direct or evaluate field office investor specialists.
The IEAP has not fully achieved the goal of a nationwide system. Significant
differences in important IEAP procedures between OIEA and the field offices exist.
In some instances, these differences result in investors receiving different services or
advice, depending on which office the investor contacts. OIEA, which receives
approximately 50% of the IEAP’s complaints and inquiries, has uniform internal
procedures.
Examples of disparate IEAP procedures are presented below.

Responses to Investor Complaints and Inquiries
We posed as fictitious investors by making telephone calls, writing letters, and
sending E-mails in late February and early March 1999. We used three different
scenarios for the field offices and OIEA.5
The quality of some of the responses varied considerably. In fact, some of the
answers to the same test question we received were mutually exclusive of one
another. The timeliness of responses also varied widely. Notably, as of December
22, 1999, 5 of the 22 inquiries, made by either letter or E-mail to field offices,
remained unanswered.

Referrals to SROs
Unlike OIEA and other field offices, the Northeast Regional Office (NERO) does not
attempt to process routine investor complaints involving registered Broker-Dealers
or their associated persons. Instead, for years it has analyzed the investor
complaints and sent routine matters (approximately 40%) directly to the NASD or
NYSE because they also process investor complaints.
Their process includes initiating an inspection/examination or enforcement action.
Thus, they have different procedures for processing investor complaints than the
IEAP. NERO stated that the forwarding procedure has worked very well and

4   17 CFR 200.24a(b).
5   The Salt Lake City District Office does not process investor complaints and inquiries.



Investor Education and Assistance Program (Audit 288)                                        April 25, 2000
                                                                                   Page 8


intelligence analysis for their Enforcement and Compliance Inspection and
Examination programs has not suffered. We did not audit the SRO’s processing of
investor complaints.

Workload Recording and Timeliness Goals
According to OIEA, the IEAP received 72,173 investor complaints and inquiries for
fiscal year 1999. However, OIEA and the field offices are not consistent in recording
investor complaints and inquiries in ACTS. Some investor specialists in the field
offices stated that because of limited resources, certain types of investor complaints
and inquiries (e.g., questions regarding the status of an investor’s complaint,
requests for pamphlets) are not recorded in ACTS.

In addition, OIEA and the field offices have different timeliness goals for responding
to investor complaints and inquiries. For instance, the Atlanta District Office
attempts to respond to E-mails and telephone calls within 24 hours and letters
within three days. OIEA attempts to either close the matter or write the firm within
30 days regardless of whether the complaint or inquiry is from an E-mail or letter,
and respond to telephone calls within 24 hours.

Review Procedures
OIEA investor specialists have their work reviewed by a Branch Chief. However, in
the field offices the extent of supervisory review varies. The supervisor either: (1)
periodically spot checks the investor specialist’s work, (2) relies on the investor
specialist to bring novel, complex, or unique situations to the supervisor’s attention,
or (3) reviews everything. Field office supervisors of IEAP staff are primarily
supervisors in either the Enforcement or Compliance Inspection and Examination
programs and have no direct experience in the IEAP program. However, they
provide answers to investor inquiries on complex or novel situations.
According to the Division of Enforcement, the field office investor specialists are
quite experienced and seek assistance from supervisors when needed. In addition,
according to the Division of Enforcement, Enforcement and Examination staff in the
field offices address investor complaints in the course of their investigations and
examinations.

Letters to Investors
OIEA sends two letters to investors: an initial acknowledgment letter and a more
detailed letter later. The field offices combine these two letters into one letter. The
letter is sent after the IEAP sends a letter (i.e., requesting a response to the
investor’s complaint) to the firm.
The substance of letters sent by OIEA and the field office differ in the information
they provide about arbitration, the statute of limitations, and subsequent actions to
be taken by the IEAP. The letters’ format and wording also differs widely. OIEA
provided the field offices with copies of their form letters during the audit.




Investor Education and Assistance Program (Audit 288)                        April 25, 2000
                                                                                                 Page 9


Investor Surveys
OIEA regularly sends investors a survey questionnaire once their complaint is
closed. However, the field offices do not survey investors.6

          Recommendation B
          OIEA, in consultation with the Regional Directors, the Division of
          Enforcement, and the Office of Executive Director (OED), should reengineer
          (i.e., prepare a business process analysis as required in the Clinger-Cohen
          Act) the IEAP into a national program with sensitivity to local conditions.
          The quality of information and services provided to investors should not be
          arbitrarily dependent on which office the investor contacts. To achieve this
          goal, OIEA should:7
                   •   Develop and implement uniform complaint and inquiry processing
                       policies and procedures for OIEA and the field offices; and
                   •   Monitor information provided to investors for compliance with its
                       policies and procedures.

          Recommendation C
          The Division of Enforcement should revise the performance plans of Regional
          Directors and District Administrators to include a performance element
          relating to the achievement of nationwide Investor Education and Assistance
          Program. For instance, this new performance element could be incorporated
          into the existing Enforcement performance elements, but refer specifically to
          the IEAP’s program goals. OIEA should provide input to the Division of
          Enforcement for each office head’s annual performance appraisal.
To improve the uniformity and consistency of responses, OIEA:
          •   Implemented a section of frequently asked questions and answers, and a
              search key by topic function on its web site;
          •   Has held investor specialist teleconferences;
          •   Has visited each of the field offices; and
          •   Plans an investor specialist conference in May 2000.
According to the Division of Enforcement, the Regional and District Office Investor
Specialists want a consistent approach to handling investor complaints and
inquiries. The field office heads also are in favor of this objective. The fact that the
Investor Specialists in the Regional and District Offices do not report directly to

6   We believe that a sampling of investors is the best approach. Given the large number of complaints
    received each year, a statistical sample would be more efficient while still providing the IEAP with
    reliable information. The new computer system (see Appendix E) could be designed to automatically
    survey investors (e.g., every fiftieth investor could receive a survey questionnaire after their
    complaint is closed).
7   OIEA stated that they would probably need another staff person (e.g., a Branch Chief, GS-14) to
    implement the recommendation. The person’s primary responsibility would be to coordinate with the
    field offices.



Investor Education and Assistance Program (Audit 288)                                      April 25, 2000
                                                                                  Page 10


OIEA should not be, in the view of the Regional Directors and District
Administrators, an obstacle in achieving an effective nationwide system for dealing
with investor complaints. They also point out that both the much larger
Enforcement and Examination staffs, who work in all 11 field offices and who report
to the field office heads, are able to conduct programs which are consistent with a
nationwide set of priorities. The field offices are able to do this by working closely
with Enforcement and Office of Compliance Inspections and Examinations (OCIE) in
Washington, D.C., which provide the necessary guidance and direction to the field
offices to ensure a consistent approach in those programs. Also, the bankruptcy staff
in the field offices (the bankruptcy program operates in some field offices), have the
same relationship with the Office of General Counsel (OGC). OGC provides the
bankruptcy staff with overall guidance on the Commission’s bankruptcy program.
According to the field offices, one of the factors contributing to any perceived
inconsistency in the IEAP is the lack of guidelines and recommended responses to
common inquiries. This can be addressed, in the view of the Regional Directors and
District Administrators, if OIEA would adopt some of the procedures used by
Enforcement and OCIE. These procedures and forms of guidance have successfully
ensured a consistent approach and the flexibility to deal with issues and problems
unique to each field office. During the audit, OIEA provided the field offices with
standardized form letters to be sent to investors. OIEA also improved its web site by
including frequently asked questions and answers on a variety of topics. OIEA
believes that the frequently asked questions and answers will improve efficiency and
consistency of information provided to investors.


PROCESSING INVESTOR COMPLAINTS
The IEAP has responsibility for processing investor complaints against regulated
entities and individuals, and assuring that they respond to such complaints.
As noted in the Background Section, investor specialists generally send a letter or E-
mail to the brokerage firm or company identified in the investor’s complaint asking
them to respond in writing to the investor and the IEAP. The IEAP also informs
investors about its role and the action investors can take on their own to address
their complaints (e.g., arbitration). The IEAP also refers some investor complaints
to the Division of Enforcement, OCIE, the field offices, SROs, state regulators, or
other federal agencies.

Success in Achieving the IEAP Processing Objective
We reviewed a representative sample of 53 investor complaint files processed during
calendar year 1998, in order to evaluate the effectiveness (i.e., outcomes) of the IEAP
in processing investor complaints. We did not attempt to determine whether these
investor complaints were later addressed using dispute resolution methods (e.g.,
arbitration) discussed in the IEAP’s educational materials. Nor did we attempt to
analyze whether these investor complaints should have been successfully addressed.
We found wide variety among the outcomes that resulted from processing by IEAP
(see Appendix B for a complete description of the methodology used and our results).



Investor Education and Assistance Program (Audit 288)                       April 25, 2000
                                                                                               Page 11


OIEA stated that not all investor complaints are meritorious. For instance, OIEA
stated that many investors do not understand when a firm or individual may have
violated the federal securities laws. OIEA believes that, for these investors, the
IEAP process serves as a method to educate investors (the investor receives
explanations and educational materials) about their rights and the merits of their
complaint before they hire an attorney or undertake more expensive dispute
resolution methods. Our results do not reflect the level of achievement of the IEAP’s
educational objectives in the processing of investor complaints.
OIEA also believes that the processing of investor complaints acts as a deterrent to
violative behavior by firms. Because firms are aware that the IEAP is actively
involved in investor complaints, OIEA assumes that they will be deterred from
activities that would bring them to the Commission’s attention. We did not perform
audit work that would confirm or refute this assumption.
We believe that the current IEAP’s procedures for processing investor complaints
should be reevaluated with a focus on outcomes. The reengineering effort should
focus on differences among types of investor complaints and establish appropriate
procedures for processing each type. For example, some investor complaints:

          •   Indicate that the firm has acknowledged the problem and will address the
              complaint. The IEAP could inform the investor that they should notify
              the IEAP, within a few months, if the complaint is not addressed.
          •   Indicate that the investor did not try to address the complaint with the
              firm’s compliance department. The IEAP could provide the investor with
              the address and telephone number of the firm’s compliance department.
              The investor should notify the IEAP, within a few months, if the
              complaint is not addressed.
          •   Indicate a minor problem (e.g., non-receipt of an account statement).
              IEAP staff could telephone, FAX, or E-mail the firm’s compliance
              department, if the investor previously tried unsuccessfully.
          •   Indicate a lack of merit based on the information provided. The IEAP
              should ask the investor to provide additional information.
          •   Indicate a meritorious issue (especially a sales practice) that is below the
              threshold for the Division of Enforcement or field offices to investigate.
              The IEAP could immediately forward the investor’s complaint to the
              appropriate SRO8 (although a copy of the investor’s complaint should be
              made and recorded in ACTS before it is referred).9
Any reengineering effort should also incorporate IEAP educational and intelligence
analysis objectives. For instance, each investor could receive explanations and other
educational materials.


8   According to the NASD and NYSE, if additional investor complaints were sent to the SROs, they
    would need to increase their staffing. However, some investor complaints received by the IEAP may
    also be duplicative of investor complaints received by an SRO.
9   Although we did not audit SRO procedures, we understand that their complaint procedures differ
    significantly from those used by the IEAP.



Investor Education and Assistance Program (Audit 288)                                    April 25, 2000
                                                                                                   Page 12


          Recommendation D
          OIEA, in consultation with the Regional Directors, OCIE, the Division of
          Enforcement, and the OED (and in conjunction with Recommendation B
          above), should reengineer (i.e., prepare a business process analysis as
          required in the Clinger-Cohen Act) the IEAP’s procedures for processing
          investor complaints. The new procedures should include of a variety of ways
          for the investor specialist to process different types of investor complaints.
          The determination of which procedure to use should be made by IEAP staff or
          management during an initial review of the investor’s complaint.

According to OIEA, they have substantially begun to reengineer the procedures for
processing investor complaints. We did not review the new procedures during this
audit.


INTELLIGENCE ANALYSIS
Another objective of the IEAP’s investor complaint process is to gather intelligence
information for the IEAP, the Division of Enforcement, OCIE, and the field offices.
In fact, the IEAP is presented as part of the “Intelligence Analysis” activity of the
“Prevention and Suppression of Fraud” program in the Commission’s budget
submissions to the President and Congress.
The IEAP makes numerous informal and formal referrals of specific matters
throughout the year. In addition, OIEA has begun distributing a report mostly for
the Division of Enforcement, OCIE, and the field offices, which identifies investor
complaints on certain topics (e.g., Microcap fraud) against certain firms. It
highlights possible cases, which warrant an investigation or examination. According
to OIEA, it plans to issue similar reports in the future, as needed.10 The IEAP, the
Division of Enforcement, OCIE, and the field offices use this type of information to
allocate their resources.
The IEAP has only been partially successful in achieving its intelligence analysis
objective. The IEAP uses investor complaint and inquiry data to initiate educational
campaigns. However, based on our testing, the Enforcement program at
headquarters and the field offices does not use IEAP investor complaints in
initiating or conducting investigations. We did not perform similar testing with
respect to OCIE and the inspection and examination programs in the field offices
because the information was not readily available.

Use of Complaint Intelligence by IEAP
OIEA believes that investor complaints are an important source for identifying
potential problems in the securities industry. Trends or observations from investor
complaints can lead to the Commission developing an educational campaign. For
instance, OIEA stated that the Commission’s recent educational campaign about on-

10   OCIE believes that the OIEA report should be distributed on a regular basis, instead of periodically.
     We do not have an opinion as to whether OCIE’s intelligence analysis would be improved by regular
     or periodic reports.



Investor Education and Assistance Program (Audit 288)                                        April 25, 2000
                                                                                                 Page 13


line trading was primarily the result of an increase in investor complaints about on-
line trading. According to OIEA, they supplied data for a recent Commission report
and to the General Accounting Office about on-line trading.

Use of IEAP Intelligence by the Enforcement Program
As part of our effort to evaluate the importance of IEAP investor complaint
intelligence information to the Commission’s Enforcement Program, we sought to
determine how the intelligence was used in conducting actual investigations.11
 The IEAP’s role is to forward investor complaints, which relate to an on-going
investigation or appear to warrant an investigation to the Enforcement program.
However, the Enforcement program is responsible for deciding how to use (e.g.,
initiating an investigation) the IEAP’s referral (i.e., the investor’s complaint). We
analyzed a representative sample of 50 Enforcement investigations.12 Audit steps
included searching the Name Relationship Search Index (NRSI) computer system for
information concerning these investigations and interviewing the attorney assigned
to the investigations. We found that although the number of investigations
involving investor complaints appears to be understated in the system records, IEAP
investor complaint intelligence did not generally appear to be critical to the conduct
of Enforcement investigations, based on our sample.

        Definition of Case Origin
Twelve percent of the 50 Enforcement investigations, which we selected in our
sample, were recorded in the NRSI computer system as an “investor complaint”
being its primary or secondary case origin. However, based on interviews with
Enforcement attorneys, 32% of the same 50 Enforcement investigations were
initiated, at least in part, by investor complaints received somewhere within the
Commission (although not necessarily by the IEAP).
The difference appeared to be caused by confusion among the staff as to how they
should interpret the origin of the investigation. For instance, in several cases
“informant” was recorded in NRSI as the case origin, although the Enforcement
attorney acknowledged that an investor complaint was the case origin. Other
recording differences involved instances in which an investor complaint was received
by another Commission division and then that division referred it to Enforcement
(the Enforcement attorney recorded the case origin as “referral”, not an investor
complaint).
According to the Division of Enforcement, anywhere from 17% to 20% of their
investigations are initiated, at least in part, from investor complaints (i.e., “investor
complaint” is recorded as either the primary or secondary origin). However as a
result of confusion over some of the case origin definitions, the reported number of


11 Not all investor complaints are received by the IEAP. For instance, the Internet Group in the
   Division of Enforcement receives investor complaints, which could lead to Enforcement
   investigations. Investor complaints are also sent directly to the Enforcement program besides the
   Internet Group.
12 We selected 50 of approximately 430 Division of Enforcement and field office investigations, which

   were closed in fiscal year 1998.



Investor Education and Assistance Program (Audit 288)                                      April 25, 2000
                                                                                             Page 14


Enforcement investigations initiated, at least in part, by investor complaints could
be materially understated in the Commission’s systems.13

        Enforcement Use of IEAP Intelligence
In interviews with the Enforcement attorneys assigned to our 50 sample cases, we
discussed how critical IEAP investor complaints were to the conduct of the
investigation. We specifically asked whether the investigation was initiated based
on the investor complaint or if the investor complaint provided information that was
critical or valuable to the investigation. The results indicated that (See Appendix D
for a complete description of the methodology used and our analysis):
        •    None of the Enforcement investigations in our sample were initiated
             primarily because of an IEAP investor complaint.
        •    In one investigation, an IEAP investor complaint was the secondary
             origin of the investigation. The Enforcement attorney believed that the
             investor’s complaint made the investigation more efficient, but that they
             would have gotten the information elsewhere in a timely manner.
        •    There were two instances in which an IEAP investor complaint was
             received after the investigation was already initiated. In one instance,
             the Enforcement attorney believed that the investor’s complaint was not
             useful at all. In the other investigation, the Enforcement attorney
             believed that the investor’s complaint made the investigation more
             efficient, but that they would have gotten the information elsewhere in a
             timely manner.
Many investor complaints are received directly by the Enforcement program (e.g.,
the Internet Group) or elsewhere in the Commission, rather than through the IEAP.
However, some of the IEAP investor complaints may have led to OCIE and field
office examinations, which in turn led to Enforcement investigations.14
OIEA, the Division of Enforcement, and the field offices have begun to discuss new
policies and procedures for forwarding meritorious investor complaints, which are
below the threshold for the Division of Enforcement or the field offices to investigate,
directly to either an SRO or state regulator. They are attempting to develop a more
uniform approach throughout the Enforcement program.

Use of IEAP Intelligence by OCIE and the Field Offices
OCIE and the field offices use investor complaints to help target some of their cause
examinations. According to OCIE, IEAP investor complaints occasionally lead to
inspections and examinations. However, even occasional investor complaints can
result in significant inspection and examination findings. We did not perform any
audit work to determine the extent of which investor complaints referred by the

13 During the audit, we issued an audit memorandum to the Division of Enforcement on this issue. See
   Appendix C for a copy of that memorandum.
14 OCIE stated that there are alternative ways to collect complaint intelligence (e.g., analyze SRO

   investor complaint records). According to OIEA, however, the quality and timeliness of the
   information from the SROs may vary.



Investor Education and Assistance Program (Audit 288)                                  April 25, 2000
                                                                                                    Page 15


IEAP were used to target inspections or examinations because the data is not
readily available.
OCIE stated that IEAP intelligence analysis could be improved if investor
complaints (i.e., the text) were scanned into the Agency Correspondence & Tracking
System (ACTS), and if they had access to ACTS data.15 Currently, the paper
investor complaint file is needed to understand the facts surrounding the investor’s
complaint. Our audit report on SRO Arbitration (Audit No. 289) recommended that
OIEA provide OCIE and the field offices with read-only access, and a complete list of
all the codes used to record complaints and inquiries into ACTS.


AGENCY CORRESPONDENCE & TRACKING SYSTEM (ACTS)
ACTS was implemented years ago and has become outdated. OIEA has been
searching for a replacement computer system that could improve efficiency and ease
of use. Intelligence analysis suffers with the current computer system, since many
field office staff (e.g., investor specialists) do not record all complaint and inquiry
data into the current computer system (because of limited resources and difficulties
in using the current system).
According to OIEA, because of Y2K and other priorities, the Office of Information
Technology (OIT) has been unable to develop a new computer system. However, a
new computer system is becoming increasingly critical because of increasing
complaint and inquiry workload. Also, reengineering the IEAP into a national
program and reengineering the investor complaint processing procedures will
fundamentally change the type of information needed by IEAP management.
Appendix E of this report contains a list of additional suggestions for the new
computer system.

           Recommendation E
           As soon as possible after the completion of the business process reengineering
           described in Recommendations B and D above, OIEA, in consultation with
           OIT, OED, and the Office of Administrative and Personnel Management,
           should request sufficient resources and priority from the Information
           Technology Capital Planning Committee to reengineer ACTS.


PERFORMANCE MEASURES
As previously mentioned, we recommend that ACTS be reengineered. In addition to
recording investor complaints and inquiries, ACTS should also be designed to report
performance (i.e., outcome) measures.
In 1993, Congress passed the Government Performance and Results Act (GPRA).
The statute requires agencies to focus budget requests on performance goals, and
compare actual performance with these goals. It also requires that agencies develop

15   Currently, ACTS only records descriptive information (e.g., that an investor’s complaint was
     received, a code representing the nature of the complaint).



Investor Education and Assistance Program (Audit 288)                                        April 25, 2000
                                                                                                 Page 16


“outcome” performance measures to supplement the more traditional “output”
measures.16 ACTS records outcome measures (e.g., money recovered, explanations
provided to investors, referrals, transactions reversed), but they are not reported.
Instead, the IEAP reports output measures (i.e., the number of complaints and
inquiries received).
Also, the output measures reported by ACTS (when we conducted the audit) were
unclear. For example, processing an investor’s complaint might involve numerous
telephone calls or letters (i.e., “Other Contacts”).17 According to OIEA, in fiscal year
1999, there were 72,173 investor complaints and inquiries received by the IEAP, of
which 9,358 (13%) were “Other Contacts”. We believe that recording “Other
Contacts” in ACTS is an administrative burden with limited programmatic benefits.
In 1998, OIEA began disclosing (e.g., in the Commission’s annual report) the
number of “Other Contacts”, but they are still recorded in ACTS. Prior to 1998,
“Other Contacts” were reported as inquires.

        Recommendation F
        OIEA, in consultation with the Division of Enforcement, the field offices, and
        the Office of the Comptroller, should consider:
             •   Not recording subsequent communications in ACTS; and
             •   Modifying the current IEAP performance measures that are reported
                 to emphasis the achievement of outcome measures, instead of output
                 measures.


MONITORING THE REENGINEERING EFFORTS
We found that improvements are needed in three main areas: reengineering the
IEAP into a truly national program by having uniform policies and procedures,
reengineering the IEAP’s processing of investor complaints, and replacing the
IEAP’s computer system (i.e., ACTS). We believe that the Chairman and the Capital
Planning Committee should be informed of the progress made in implementing the
necessary corrective actions.

        Recommendation G
        OIEA, in consultation with OED, OCIE, the Regional Directors, and the
        Division of Enforcement, should distribute brief (e.g., less than five pages)
        quarterly status reports (with milestones and dates) to the Chairman and the
        Capital Planning Committee on the progress made in implementing the
        following recommendations made in this audit report (the recommendations
        and findings are discussed in greater detail in the appropriate sections of the
        report):

16 An output measure relates to the number of units produced by an activity (e.g., number of letters
   sent or telephone calls received). An outcome measure relates to the results of the letters or
   telephone calls to a desired outcome (e.g., money recovered).
17 “Other Contacts” represent repeat contacts, contacts with insufficient information, etc.




Investor Education and Assistance Program (Audit 288)                                      April 25, 2000
                                                                                 Page 17


             •   Reengineering the IEAP into a national program by developing and
                 implementing uniform complaint and inquiry processing policies and
                 procedures for OIEA and the field offices (Recommendation B).
             •   Reengineering the IEAP’s procedures for processing investor
                 complaints. The new procedures should consist of a variety of ways
                 for the investor specialist to process investor complaints
                 (Recommendation D).
             •   Developing and approving a system requirements document for a new
                 computer system to replace ACTS. Implementing a new computer
                 system upon approval of the system requirements document
                 (Recommendation E).

        Recommendation H
        The Office of Executive Director, in consultation with OIEA, OCIE, the
        Regional Directors, and the Division of Enforcement, should semiannually
        (beginning in November 2000) provide the Chairman with an oral briefing
        describing the progress made in implementing the recommendations
        described in this audit report and plans for the next six-month period. The
        May 2001 briefing should specifically discuss whether the IEAP is operating
        as a unified national program. If the program is not operating as a unified
        national program, the OED should discuss alternative solutions, including
        centralizing the IEAP and its staff in Washington, D.C., with the Chairman.




Investor Education and Assistance Program (Audit 288)                      April 25, 2000
                                                                                                 Page 18



                                                                               APPENDIX A

 INVESTOR EDUCATION SUGGESTIONS MADE
      BY NONPROFIT ORGANIZATIONS

In our survey of nonprofit investor education organizations, we solicited suggestions,
assuming funding and staffing were not issues, to improve the Commission’s IEAP
and, specifically, how to enhance the education of financially illiterate or
unsophisticated investors.
The nonprofit organizations offered several suggestions 18 to make the IEAP’s
investor education efforts more effective:
     •   Have regular television programs or messages on cable (e.g., CNN).
     •   Broadcast the Investor’s Town Meetings on the Commission’s web page and
         increase the number of Investor’s Town Meetings, as the Chairman’s time
         permits.19
     •   Clearly indicate on the Commission’s web page where the educational
         materials can be found.20
     •   Target the IEAP’s educational materials to specific audiences (e.g., based on
         ethnic, gender, age, and similar considerations), because different methods of
         promoting the educational materials are needed for different audiences.
     •   Continue the IEAP’s partnerships with educational organizations. Many of
         these organizations have expertise, experience, and established distribution
         networks.
     •   Provide libraries across the country with educational materials and help
         them to promote the material.21
     •   Translate the IEAP’s educational materials into other languages, to reach
         additional segments of the population.22
     •   Increase the availability of the Commission’s staff to speak at educational
         forums, especially outside of Washington, DC.


18 Some of their suggestions would require additional funding and/or Congressional approval. One way
   to fund some of these suggestions would be to continue to closely coordinate with the Department of
   Labor. In 1997 the “Savings Are Vital to Everyone’s Retirement Act” was signed. The purpose of the
   Act was to raise public awareness of the need to increase personal savings so individuals will have a
   secure and comfortable retirement. The Act specifically authorizes the Department of Labor to use
   public service announcements.
19 The National Town Meeting on Savings and Investing (April 4, 1998) was broadcasted on the

   Internet by a nonprofit educational organization. Also, OIEA taped the November 20, 1999
   Investor’s Town Meeting and it is available on the IEAP web site.
20 During the audit, OIEA improved its web site so that investor educational materials can be more

   easily found.
21 OIEA has begun to provide schools with educational materials.
22 OIEA has translated some educational materials into Spanish.




Investor Education and Assistance Program (Audit 288)                                      April 25, 2000
                                                                                               Page 19



                                                                             APPENDIX B

     REVIEW OF INVESTOR COMPLAINT FILES

Purpose
We reviewed 53 investor complaint files to evaluate the outcome of the processing
performed by the IEAP (i.e., corresponding with the investor and firm involved)23.
We determined effectiveness by reviewing the nature of the investor’s complaint and
the firm’s response, among other documentation in the investor’s complaint file.

Methodology
We had OEA, in consultation with OIEA, create a report from ACTS listing all
investor complaints received and closed by the IEAP in calendar year 1998 (we did
not audit ACTS). Approximately 8,899 investor complaints were received and closed
in calendar year 1998.
OEA stated that for statistical purposes, we should review at least 50 investor
complaint files. We selected 53 investor complaint files, based on a random number
list created by OEA. In reviewing the investor complaint files, 80 investor complaint
files had to be rejected and were replaced. Some of the common reasons for rejecting
files were:
     •   The investor’s complaint file was misplaced or the file number was assigned
         to the Office of Filings and Information Services (OFIS).24
     •   The investor’s complaint did not require the investor specialist to write the
         firm a letter.
     •   The investor’s complaint was more of an inquiry rather than an investor
         complaint.
     •   The investor’s complaint file was closed and transferred to another case
         number.
     •   The investor’s complaint was transferred to an SRO.

Analysis
Once our sample was selected, we analyzed the outcomes of the IEAP’s efforts in
processing the complaints. The outcomes of the IEAP’s efforts appeared to fall into
six categories (approximate percentages for each outcome are in bold). The following
is a listing of the cases reviewed and a description of the investor complaint and/or
action: 25
23 The results apply only to complaints processed by IEAP and not the program as a whole.
24 The Public Reference Branch in OFIS also uses the ACTS system to record inquiries they receive
   from the public.
25 The confidence interval for this sample was 90%. This means that the 5.7% finding could be as low

   as 1.9% or as high as 11.3%. Similarly, the range for the 24.5% outcome is from 15.1% to 34%. The
   range for the 52.1% outcome is from 41.5% to 64.2%.



Investor Education and Assistance Program (Audit 288)                                    April 25, 2000
                                                                                        Page 20




        5.7%     The IEAP processed the complaint and was successful in satisfying
                 the investor.

                 M-103841          (The stock certificates were not properly registered)
                 HO-204268         (IRA fees were not adequately disclosed. The investor
                                   was reimbursed $10)
                 M-103782          (The firm is speeding-up the process of reissuing stolen
                                   bonds)

        5.7%     The investor’s complaint was addressed after the IEAP’s
                 involvement in processing the complaint. However, either: (1) the
                 firm and the investor began settlement negotiations prior to the
                 IEAP’s involvement, but the negotiations concluded afterwards; (2)
                 the firm stated that it was unable to reach the investor in order to
                 correct the problem; or (3) the investor stated that the firm
                 acknowledged that it would remedy the problem prior to the IEAP’s
                 involvement.

                 HO-171810         (There was unauthorized trading and suitability
                                   problems. The investor was reimbursed $22,500)
                 HO-203434         (There was a problem transferring IRA funds. The
                                   investor was reimbursed $250)
                 HO-200080         (The investor had canceled a transaction. The investor
                                   was reimbursed $615)

        5.7%     The IEAP appropriately processed the investor’s complaint. However,
                 the investor apparently did not try to address the complaint with the
                 firm prior to writing the IEAP. Given the routine nature of the
                 investor complaint, it appears that the investor could have addressed
                 the matter by writing the firm.

                 LA-110266         (The investor did not receive an account statement)
                 HO-199275         (The firm will contact the transfer agent and try to
                                   locate the stock certificates)
                 HO-206441         (The dividend payments were being sent to the wrong
                                   bank account)

        5.7%     The IEAP appropriately processed the investor’s complaint. However,
                 the firm denied any wrongdoing. The firm apparently addressed the
                 investor’s allegation(s) as a sign of “good will”, perhaps in response to
                 the IEAP’s correspondence.

                 NY-111931         (The investor was charged a total of $45 for three
                                   “bounced” checks. The firm reimbursed the investor)
                 NY-111165         (The investor needed stock certificates to be replaced.
                                   The firm offered alternative methods besides a surety
                                   bond)


Investor Education and Assistance Program (Audit 288)                             April 25, 2000
                                                                                       Page 21


                 HO-212039         (A stock trade was not made because the investor had
                                   not complied with the applicable policies and
                                   procedures. The firm made partial restitution)

        24.4% The investor and the firm addressed the complaint on their
              own, prior to the firm receiving the letter from the IEAP.

                 P-102465          (There were errors made in buy/sell transactions)
                 HO-204041         (An advice management fee was accidentally charged)
                 C-104433          (There were unauthorized stock and inaccurate
                                   information in the investor’s account)
                 NY-111595         (The firm would not sell securities without possession of
                                   the stock certificates and the stock price went down in
                                   the interim)
                 HO-195610         (The investor could not get his or her funds transferred
                                   from one firm to another)
                 HO-211495         (The firm consistently made name, account, and address
                                   typos and the firm could not seem to fix the problem)
                 HO-196957         (The investor was unable to get his or her account
                                   transferred to another firm)
                 M-103894          (The firm would not liquidate the investor’s account)
                 HO-204674         (The investor had not received quarterly reports or
                                   other information about the firm)
                 HO-196838         (The firm did not stop the automatic redemption process
                                   despite the investor’s request. The investor was
                                   reimbursed $315.46)
                 HO-197874         (A postal order was not credited to the investor’s
                                   dividend reinvestment account)
                 HO-212858         (There was a lack of disclosure and poor customer
                                   service)
                 B-102385          (The firm inappropriately charged the investor a $10
                                   wire fee)

        52.8% The firm denied the allegation(s). Although the investor may have
              achieved satisfaction through arbitration or other means
              recommended by the IEAP.
                 SF-103960         (Bonds defaulted and the investor claimed that false
                                   information was provided when they were purchased)
                 HO-198084         (The investor’s account was accidentally closed and the
                                   investor did not want to complete the necessary
                                   paperwork)
                 M-103970          (The firm improperly withheld taxes, did not account for
                                   a stock split, would not close the account, and charged
                                   improper fees)
                 LA-110922         (There were problems with the delivery of account
                                   records. The firm improperly liquidated the account
                                   and subsequent increases in the stock price were not
                                   realized)


Investor Education and Assistance Program (Audit 288)                            April 25, 2000
                                                                                        Page 22


                 M-103815          (The investor was misled about the interest rate on
                                   bonds)
                 HO-159216         (A public company issued new shares of common stock
                                   despite prior statements to the contrary)
                 HO-198292         (The investor alleged churning)
                 P-102347          (The investor cannot determine the status of an
                                   investment)
                 M-103819          (The investor is only receiving interest on two bonds,
                                   one bond is missing from the investor’s account)
                 HO-208753         (The firm took too long to sell the investor’s securities)
                 HO-213558         (The investor was not informed of the need to exchange
                                   shares in a timely manner)
                 NY-111232         (The firm would not issue a check from the sale of stock
                                   in the investor’s name only)
                 HO-201645         (The firm will not transfer the investor’s IRA)
                 P-102343          (The firm did not deliver stock certificates and is double
                                   charging on commissions)
                 HO-200491         (The firm committed an unauthorized transaction and is
                                   delaying transferring the investor’s account to another
                                   firm)
                 HO-208698         (The investor is unable to purchase IPOs)
                 A-102419          (The firm made false/inappropriate margin calls)
                 SF-104381         (The firm would not make a stock trade because the
                                   firm believed that it was not in the investor’s best
                                   interest)
                 HO-199896         (Funds were inappropriately electronically transferred
                                   from the investor’s mother’s account)
                 HO-197121         (The firm made an error in the investor’s account. The
                                   firm gave the investor extra money and the investor
                                   wants to keep the money)
                 HO-203091         (The firm must have committed fraud because the
                                   investor lost $2,000)
                 LA-110614         (The firm did not provide adequate advice and there
                                   were allegations involving suitability)
                 LA-110445         (The investor alleged suitability problems and requested
                                   information on the status of the investor’s investments)
                 C-104434          (Bonds were not purchased at fair market value)
                 C-104500          (Bonds were redeemed without the investor’s approval)
                 LA-110062         (The firm charged excessive fees in selling naked
                                   options)
                 A-102404          (There was a lack of timeliness in transferring the
                                   investor’s account and there was a failure to act in the
                                   investor’s best interest)
                 A-102405          (The firm did not transfer money to the proper account
                                   and the firm provided wrong information)




Investor Education and Assistance Program (Audit 288)                             April 25, 2000
                                                                                              Page 23



                                                                             APPENDIX C



A U D I T                   M E M O R A N D U M                                N O . 1 8


                                                                                     July 19, 1999


To:        Richard Walker


From:              Walter Stachnik


Re:                Reporting the Case Origins of Enforcement Investigations


The Office of Inspector General is conducting an audit of the Commission’s Investor
Education and Assistance Program (IEAP). During the audit, we identified an issue
that relates to the Enforcement Program.
We sought to determine how often IEAP investor complaints were the cause (either
the primary or secondary origin) of an Enforcement investigation (including the field
offices). We reviewed a representative sample of 50 Enforcement investigations,
which were closed in fiscal year 1998. We interviewed an Enforcement attorney who
was knowledgeable about each investigation. Based on our interviews, 32% of the
Enforcement investigations that we reviewed were initiated, at least in part, by
investor complaints received somewhere within the Commission (although not
necessarily by the IEAP).
We reviewed the Division of Enforcement’s NRSI computer system to validate some
of the information provided by the Enforcement attorneys. According to the NRSI
system, only 12% of the same 50 Enforcement investigations were initiated, at least
in part, by investor complaints. The Commission has reported (e.g., in the budget)
that approximately 17% to 20% of all Enforcement investigations are initiated, at
least in part, by investor complaints. Thus, the findings from our review of the
NRSI system are materially consistent with the information that has been reported
by the Commission.
In order to identify the cause(s) of the discrepancy between the NRSI system and
our interviews, we identified those Enforcement investigations where the NRSI
information differed from what the Enforcement attorneys stated in the interviews.
We found that the discrepancies are due mainly to how Enforcement attorneys
interpret the case origin terms on Enforcement Form 19A.26 For instance, in some of
26   The data from Enforcement Form 19A is entered into the CATS system, which interfaces with NRSI.



Investor Education and Assistance Program (Audit 288)                                   April 25, 2000
                                                                                Page 24


these Enforcement investigations, the Enforcement attorneys stated in our
interviews that an investor complaint was the primary origin of the investigation.
However, NRSI recorded the case origin as an informant. A few Enforcement
attorneys stated that there are other instances where there is uncertainty as to how
they should interpret the case origin of the investigation. For example, if the
complaint is received by another Division and then referred to Enforcement.
Depending on how one interprets the case origin terms on Enforcement Form 19A,
the reported number of Enforcement investigations that are initiated, at least in
part, by investor complaints could be materially understated.



        Recommendation A
        The Division of Enforcement should review the case origin terms, as well as,
        any other potentially confusing terms (e.g., Case Classification) on
        Enforcement Form 19A, and issue guidance to all Enforcement attorneys to
        clarify any potentially confusing terms.


Enforcement management agreed with our recommendation and has reviewed the
terms. New case origins and accompanying guidance will go into effect when the
new case tracking system, CATS 2000, goes on line.


cc:     Mike Burnett
        Diane Campbell
        Steve Cutler
        David Levine
        Jim McConnell
        Joan McKown
        Darlene Pryor
        Jennifer Scardino
        Nancy Smith
        Susan Wyderko




Investor Education and Assistance Program (Audit 288)                     April 25, 2000
                                                                                                     Page 25



                                                                                  APPENDIX D

REVIEW OF ENFORCEMENT INVESTIGATIONS

Purpose
The purpose of our review of the Division of Enforcement’s and the field offices’
investigations was to determine to what extent investor complaints referred by the
IEAP are important to the Enforcement program’s ability to achieve its mission. We
considered such factors as whether:
       •   The investigation was initiated (e.g., primary or secondary origin) because of
           an investor complaint received by IEAP.
       •   An investor’s complaint was used to provide valuable information (e.g.,
           witnesses), etc. We determined the importance by interviewing Enforcement
           attorney(s), who had knowledge of the investigation.

Methodology
We had the Office of Information Technology, in consultation with the Division of
Enforcement create a report (i.e., a listing) from the CATS system of all the Division
of Enforcement and field office investigations, which were closed in fiscal year 1998.
We did not audit CATS. There were approximately 430 Enforcement investigations
closed in fiscal year 1998. OEA recommended that for statistical purposes, we
should review at least 50 Enforcement investigations. We selected the 50
Enforcement investigations, based on a random number list, created by OEA.
Enforcement investigations were rejected if the knowledgeable Enforcement
attorney(s) no longer worked at the Commission or if the attorney(s) could not
adequately remember the investigation and the next case on the random list was
researched instead. Ultimately we researched 68 cases to find the 50 cases in which
the Enforcement attorney was still available and knowledgeable.

Analysis
We found the following:27
       •   In 13 of the 50 Enforcement investigations, an investor’s complaint was the
           primary origin of the investigation. The Enforcement program received ten of
           the 13 investor complaints, and 2 were received elsewhere in the Commission
           (however, not by the IEAP). The remaining investor complaint was received
           from a miscellaneous source. None of the 13 investor complaints were
           received by the IEAP.
       •   In all 13 Enforcement investigations where an investor’s complaint was the
           primary origin of the investigation, timeliness was not critical (e.g., a TRO

27   The confidence interval for this sample was 90%. This means that the 13 out of 50 finding could be
     as low as 8 out of 50 or as high as 18 out of 50. Similarly, the range for the 3 out of 50 outcome is
     from 1 to 6 out of 50. The results of the other outcomes should be considered anecdotal.



Investor Education and Assistance Program (Audit 288)                                          April 25, 2000
                                                                                                Page 26


           was not obtained) in the Enforcement program’s ability to protect the
           investors.
       •   In the 13 Enforcement investigations where an investor’s complaint was the
           primary origin of the investigation, there were 7 instances where the
           investor’s complaint was the sole origin of the investigation.
       •   In 3 of the 50 Enforcement investigations, an investor’s complaint was the
           secondary origin of the investigation. One of the 3 investor complaints was
           received by the IEAP, and 1 investor complaint was an SRO referral. The
           Enforcement attorney could not remember the source of the other investor
           complaint. With respect to the importance of the IEAP investor complaint,
           the Enforcement attorney believed that the investor’s complaint was useful in
           terms of efficiency, but that they would have gotten the information
           elsewhere in a timely manner.
       •   In 3 of the 50 Enforcement investigations, an investor complaint was received
           after the investigation was initiated.28 The IEAP was the source of 2 of the 3
           investor complaints. In one instance the Enforcement attorney believed that
           the investor’s complaint was not useful at all. In the other instance, the
           Enforcement attorney believed that the investor’s complaint was useful in
           terms of efficiency, but that they would have gotten the information
           elsewhere in a timely manner.




28   In 2 of the 50 Enforcement investigations, the Enforcement attorney could not remember whether an
     investor’s complaint was received after the investigation was initiated.



Investor Education and Assistance Program (Audit 288)                                     April 25, 2000
                                                                                                    Page 27



                                                                                  APPENDIX E

Agency Correspondence & Tracking System (ACTS)

Numerous changes regarding the tracking system and the investor complaints and
inquiries process could improve the effectiveness and efficiency of the IEAP,
including:
      •   Automate as much of the investor specialists’ work as technologically possible.
          For instance, currently, investor specialists spend time modifying boilerplate
          letters, creating response packages (e.g., gathering pamphlets), and
          addressing envelopes. Letters and envelopes could automatically be computer
          generated. Pamphlets could be electronically stored, printed by the computer
          system, and enclosed with the response letter to the investor, without further
          staff intervention.
      •   Automate searches of other Commission databases. The investor specialists
          manually search the Division of Enforcement’s computer systems to determine
          whether the investor’s complaint relates to an on-going Enforcement matter.
          A new computer system could be developed so that this search is done
          automatically.
      •   Use bar codes to manage documents through the computer system. The new
          computer system could function as a document management system (e.g.,
          track pending workload, staff assignments, etc.) assigning work to the
          investor specialists and tracking pending investor complaints and inquiries.
          For instance, bar coding could be used for written inquiries. A bar code label
          would be placed on the incoming document and the computer system would
          record the number and the date and assign it to an investor specialist.
      •   Automatically generate and send closeout letters. We reviewed a judgmental
          sample of OIEA survey questionnaires. Many investors stated that they could
          not respond because they believed that their complaint was still open.
          Currently, investors are not informed when their complaint is closed. Some
          investors may be unnecessarily awaiting the IEAP’s processing before taking
          action themselves (e.g., arbitration). A closeout letter could be automatically
          generated by the new computer system once the investor’s complaint or
          inquiry is closed in ACTS.29
      •   Increase the use of the web site for receiving investor complaints. Investors
          could be asked to complete a complaint and inquiry form on the web site
          linked to the computer system. Information from the form would be
          automatically recorded in the new computer tracking system. OIEA has
          created an on-line investor complaint form, but OIEA is trying to improve its
          accessibility because investors may have a difficult time finding it. The new
          complaint form does not record information directly into ACTS.

29   The current letter to the investor states that if the IEAP determines that the firm’s response
     adequately responds to the allegation(s), the investor will not receive any additional correspondence
     from the IEAP.



Investor Education and Assistance Program (Audit 288)                                         April 25, 2000
                                                                                   Page 28


   •   Separate authorities and duties. To strengthen management control of the
       investor complaint and inquiry process, a new computer system could require
       that only supervisors could close out investor complaints and inquiries in the
       computer system.
   •   Use user-friendly interfaces (such as Windows). The current system has
       multiple screens, restrictive data entry fields, problems with capitalization,
       and is unfriendly to users. Our prior audit report identified the need to
       replace ACTS because it was not user friendly. Any new computer system
       must overcome these limitations.
   •   Modify investor complaints and inquiries coding to minimize costs and
       confusion and to better satisfy Congressional and OMB reporting
       requirements (e.g., GPRA). Investor specialists code each investor complaint.
       Until recently, inquiries were also coded. Each code is a symbol, which
       describes the nature of the investor complaint, entity involved, security
       product involved, disposition, referral, and reasons for the referral. OIEA has
       assigned two investor specialists the responsibility of coding most investor
       complaints and inquiries because of the complexity and number (e.g., 320) of
       codes, and the need to ensure consistency.
   •   Ensure Compliance with the Government Paperwork Elimination Act. Public
       Law 105-277 dated October 21, 1998 requires that government agencies must
       generally provide for the optional use and acceptance of electronic documents
       and signatures, and electronic record keeping where practicable, by October
       2003. The new computer system should be compliant with all the applicable
       provisions of the Act.
   •   Scan the text of the investor’s complaint. OCIE stated that IEAP intelligence
       analysis could be improved if investor complaints (i.e., the text) were scanned
       into ACTS, and if they had access to ACTS data. Currently, ACTS only
       records descriptive information (e.g., that an investor’s complaint was
       received, a code representing the nature of the complaint). The paper investor
       complaint file is currently needed to learn the facts surrounding the investor’s
       complaint.
   •   Provide OCIE and the field offices with read-only access and the ability to
       create reports. Our audit report on SRO Arbitration (Audit No. 289)
       recommended that OIEA provide OCIE and the field offices with read-only
       access, and a complete list of all the codes used to record complaints and
       inquiries into ACTS. The new computer system should also enable OCIE and
       the field offices to generate their own reports.




Investor Education and Assistance Program (Audit 288)                        April 25, 2000
